No. 20-827

IN THE

Supreme Court of the United States

d

UNITED STATES

OF

AMERICA ,
Petitioner,

—v.—

ZAYN

AL -ABIDIN

MUHAMMAD HUSAYN , aka
ABU ZUBAYDAH , et al.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR AMICUS CURIAE SEPTEMBER 11TH
FAMILIES FOR PEACEFUL TOMORROWS
IN SUPPORT OF RESPONDENTS
STEVEN S. SPARLING
Counsel of Record
MARJORIE E. SHELDON
ARIELLE WARSHALL KATZ
NATHAN SCHWARTZBERG
RYAN GANDER
KRAMER LEVIN NAFTALIS
& FRANKEL LLP
1177 Avenue of the Americas
New York, New York 10036
(212) 715-9100
ssparling@kramerlevin.com
Counsel for Amicus Curiae
September 11th Families
for Peaceful Tomorrows

TABLE OF CONTENTS

PAGE

TABLE OF AUTHORITIES ....................................... iii
INTEREST OF AMICUS CURIAE ............................. 1
SUMMARY OF ARGUMENT ..................................... 4
ARGUMENT ................................................................ 6
I. THE REYNOLDS DOCTRINE PRECLUDES
BLIND DEFERENCE TO THE EXECUTIVE
BRANCH ........................................................... 6
A. Under Reynolds, Courts Must Subject
Blanket Invocations of the State Secrets
Privilege to Independent Judicial
Scrutiny ........................................................ 6
B. The Court of Appeals Correctly Held that,
Under Reynolds, the District Court Must
Scrutinize the Government’s Privilege
Claim More Closely Before Taking the
Drastic Step of Quashing Respondents’
Subpoenas .................................................... 8
II. BLANKET PRIVILEGE INVOCATIONS,
WITHOUT MEANINGFUL JUDICIAL
OVERSIGHT, IMPEDE THE PURSUIT
OF JUSTICE ................................................... 12
A. The Individual Stories of Members of
Peaceful Tomorrows .................................. 13
1. Colleen Kelly ........................................ 13
2. Terry Rockefeller .................................. 15

ii
PAGE

3. Jessica and Leila Murphy .................... 15
4. Valerie Lucznikowska .......................... 17
5. Nancy Meyer......................................... 17
6. Phyllis Rodriguez ................................. 18
7. Adele Welty........................................... 19
B. The Experience of Members of Peaceful
Tomorrows with the State Secrets Privilege
at the 9/11 Proceedings Demonstrates the
Need for Judicial Scrutiny ........................ 20
CONCLUSION .......................................................... 28

iii
TABLE OF AUTHORITIES

PAGE(S)

Cases
Ellsberg v. Mitchell,
709 F.2d 51 (D.C. Cir. 1983) .......................... 7, 8, 9
Mohamed v. Jeppesen Dataplan, Inc.,
614 F.3d 1070 (9th Cir. 2010) ........................ 7, 8, 9
United States v. Reynolds,
345 U.S. 1 (1953) ........................................... passim
Other Authorities
Carol Rosenberg, Trial Guide: The Sept. 11 Case at
Guantánamo Bay, N.Y. Times (July 9, 2021),
https://www.nytimes.com/article/september-11trial-guantanamo-bay.html.................................... 3
Docket of United States v. Khalid Shaikh
Mohammad et al., Dept. of Defense, Office
of Military Commissions,
https://www.mc.mil/CASES.aspx ........................... 2
Hearing Transcripts in United States v. Khalid
Shaikh Mohammad et al.
Jan. 28, 2013 Transcript,
https://www.mc.mil/Portals/0/pdfs/KSM2/KSM
%20II%20(TRANS28January2013-PM1).pdf ...... 22
July 25, 2016 Transcript,
https://www.mc.mil/Portals/0/pdfs/KSM2/KSM
%20II%20(TRANS25July2016-PM1).pdf ............ 24
July 23, 2018 Transcript,
https://www.mc.mil/Portals/0/pdfs/KSM2/KSM
%20II%20(TRANS23Jul2018)-MERGED.pdf ..... 25

iv
PAGE(S)

Jan. 22, 2020 a.m. Transcript,
https://www.mc.mil/Portals/0/pdfs/KSM2/
KSM%20II%20(TRANS22Jan2020-AMMERGED).pdf....................................................... 26
Jan. 22, 2020 p.m. Transcript,
https://www.mc.mil/Portals/0/pdfs/KSM2/
KSM%20II%20(TRANS22Jan2020-PMMERGED).pdf................................................. 23, 27
Jan. 27, 2020 Transcript, Part 2 of 5,
https://www.mc.mil/Portals/0/pdfs/KSM2/
KSM%20II%20(TRANS27Jan2020MERGED)_Part2.pdf ........................................... 27
James E. Mitchell, Ph.D., Enhanced Interrogation:
Inside the Minds and Motives of the Islamic
Terrorists Trying to Destroy America
(2016) .................................................................... 11
John Ryan, Pretrial of the Century: The Sept. 11 Case
at Guantanamo Bay, Lawdragon (Sept. 21, 2016,
printed in Lawdragon 500 Issue 17, Jan. 2017),
https://www.lawdragon.com/docs/Pretrialof-the-Century-Guantanamo.pdf ................. 2, 3, 22
Julia Rodriguez, Guantánamo Is Delaying Justice
for 9/11 Families, N.Y. Times (Nov. 13, 2017),
https://www.nytimes.com/2017/11/13/opinion/
guantanamo-911-justice.html .............................. 16
Julian Borger, Guantanamo: psychologists who
designed CIA torture program to testify,
The Guardian (Jan. 20, 2020),
https://www.theguardian.com/us-news/2020/
jan/20/guantanamo-psychologists-cia-tortureprogram-testify ..................................................... 25

v
PAGE(S)

Martin Luther King, Jr., The Casualties of the War
in Vietnam (Feb. 25, 1967) ................................... 15
Report of the Senate Select Committee on
Intelligence, Committee Study of the Central
Intelligence Agency’s Detention and Interrogation
Program (Dec. 9, 2014), https://www.intelligence.
senate.gov/sites/default/files/documents/CRPT113srpt288.pdf ......................................................... 2, 3

INTEREST OF AMICUS CURIAE 1
September 11th Families for Peaceful Tomorrows
(“Peaceful Tomorrows”) is an organization of more
than 250 family members of those killed in the
attacks of September 11, 2001, who have united to
turn their grief into action for peace. Founded in
February 2002, Peaceful Tomorrows’ mission is to
develop and advocate for peaceful actions in the
pursuit of justice – breaking down the cycles of
violence engendered by war and terrorism.
Consistent with its mission, Peaceful Tomorrows
seeks justice and accountability for the September
11th attacks and for the torture that was
subsequently carried out in its family members’
names by the United States government. To that
end, Peaceful Tomorrows wants those responsible for
the September 11th attacks held accountable for their
crimes pursuant to a just process that follows the rule
of law. To ensure a just process, Peaceful Tomorrows
believes the rule of law must also apply to our
government. That includes the judiciary serving as a
gatekeeper to prevent unjustified invocations of the
state secrets privilege, which may otherwise suppress
information that is not privileged or is merely
embarrassing to the government.
The scope of the state secrets privilege and the
judiciary’s role as a gatekeeper against abuses of the
privilege affect Peaceful Tomorrows. Its members
All parties consented in writing to the filing of this amicus
brief. No party or party’s counsel authored this brief in whole,
or in part, or made a monetary contribution intended to fund the
preparation or submission of this brief. No one other than
Amicus and its counsel made a monetary contribution to the
preparation or submission of this brief.

1

2
have closely followed the Office of Military
Commissions’ case in Guantanamo Bay, Cuba
involving the individuals charged with plotting the
September 11th attacks. In May 2012, five men were
arraigned in Guantanamo on charges of aiding the
nineteen men who hijacked passenger planes and
crashed them into the World Trade Center, the
Pentagon, and a Pennsylvania field on September
11th. 2 The case, United States v. Khalid Sheikh
Mohammad, et al. (the “9/11 Proceedings” or the
“Proceedings”), remains stalled at the pretrial phase
nearly a decade after its inception. 3 The docket
contains over 10,000 entries, tens of thousands of
pages of transcripts, and countless motion papers,
many of which relate to discovery disputes over the
classified status of evidence concerning the Central
Intelligence Agency (“CIA”) detainee torture program
– or what the government calls “enhanced
interrogation techniques.” 4 Any trial may still be
years away. 5
2 See John Ryan, Pretrial of the Century: The Sept. 11 Case at
Guantanamo Bay, Lawdragon, 60 (Sept. 21, 2016, printed in
Lawdragon 500 Issue 17, Jan. 2017), https://www.lawdragon.
com/docs/Pretrial-of-the-Century-Guantanamo.pdf.
3 Id.
4 See Docket of United States v. Khalid Shaikh Mohammad et
al., Dept. of Defense, Office of Military Commissions,
https://www.mc.mil/CASES.aspx; see also Report of the Senate
Select Committee on Intelligence, Committee Study of the
Central Intelligence Agency’s Detention and Interrogation
Program (Dec. 9, 2014), https://www.intelligence.senate.gov/
sites/default/files/documents/CRPT-113srpt288.pdf.
In December 2014, the U.S. Senate Select Committee on
Intelligence released its findings and an executive summary of
its Study of the CIA’s Detention and Interrogation Program (the
“Senate Report”).
The Senate Report details the CIA’s
“enhanced interrogation” program and its torture of the five

3
Peaceful Tomorrows’ members have observed
firsthand that a significant cause of the delay in the
Proceedings has been the government’s broad
invocations of national security to withhold
purportedly classified evidence relating to the torture
of the defendants at various CIA “black sites.” 6 They
have also observed the critical need for effective
judicial gatekeeping in adjudicating these privilege
invocations.
As these discovery disputes have raged on, much of
the information the government sought and still
seeks to suppress has become public. It is no longer
secret that the CIA tortured detainees, including Abu
Zubaydah, at CIA detention sites abroad. It is no
longer secret that one such site was in Poland.
Indeed, individuals involved with the torture of Mr.
Zubaydah – whose depositions Respondents now seek
– have already testified at length twice and one
published a detailed description about it in a book, all
with the full knowledge of the government. The
government’s continued reliance on the state secrets
privilege to suppress evidence that, simply put, is no
longer secret underscores the need for judicial
oversight over and scrutiny of sweeping privilege
claims.

defendants and other detainees, including Respondent Abu
Zubaydah.
5 See Carol Rosenberg, Trial Guide: The Sept. 11 Case at
Guantánamo
Bay,
N.Y.
Times
(July
9,
2021),
https://www.nytimes.com/article/september-11-trial-guantanamobay.html.
6 See John Ryan, Pretrial of the Century: The Sept. 11 Case at
Guantanamo Bay, Lawdragon 500 Issue 17, 63-72; see also
generally Senate Report.

4
As the twentieth anniversary of the September
11th attacks draws near, members of Peaceful
Tomorrows are deeply troubled by the failure to bring
the defendants to a just trial. They are equally
troubled by numerous instances in which the
government may have invoked national security to
evade embarrassment and accountability for
torturing detainees, rather than to protect national
security. Peaceful Tomorrows also fears that the
legitimacy of the 9/11 Proceedings will be
irretrievably compromised by abuses of the state
secrets privilege. This erosion of confidence and the
potential government abuses of national security
invocations underscore why adhering to the rule of
law – including its application to the government – is
essential to the integrity of our trial system.
Peaceful Tomorrows believes that affirming the
decision of the Court of Appeals – requiring the
District Court to serve as a true gatekeeper and
subject assertions of the state secrets privilege to
meaningful scrutiny pursuant this Court’s decision in
United States v. Reynolds – is critical to the
administration of justice generally, will advance the
cause of justice on behalf of their loved ones lost, and
will effect change in the 9/11 Proceedings.
SUMMARY OF ARGUMENT
A central issue on appeal is the judiciary’s role in
ensuring that the government does not abuse the
state secrets privilege to repress information in court
that is already public, or to shield evidence that is not
a matter of national security, but rather one of
national embarrassment. Such abuses of the state
secrets privilege would undermine public confidence
in our trial system and enable the government to

5
evade accountability for its actions. Accordingly, this
Court should insist on applying the process it
established in United States v. Reynolds, 345 U.S. 1
(1953), that requires courts to scrutinize the
government’s invocations of the state secrets
privilege and, as is appropriate here, seek to
disentangle
non-privileged
information
from
privileged information whenever possible.
The government argues for effectively unlimited
deference to the executive branch on matters of
national security. But unlimited deference is not the
law. Quite the contrary, in Reynolds, this Court held
that decisions over the admissibility of evidence in
court proceedings cannot be “abdicated” to the
executive branch, even in the sensitive arena of
national security.
In Point I, we explain that the state secrets
doctrine applies only to information that is kept
secret, and the disclosure of which poses a genuine
risk to national security. Under Reynolds, courts
have a crucial gatekeeping function: they must
scrutinize blanket invocations of the privilege and
make an independent determination that the
evidence the government seeks to protect is, in fact,
privileged. And where, as here, both privileged and
non-privileged information is implicated, the court
must try to disentangle one from the other before
taking the drastic step of precluding discovery. The
Court of Appeals reversed and remanded because the
District Court did not undertake that analysis and
was, instead, overly deferential to the government’s
privilege claim. Peaceful Tomorrows agrees with
Respondents that the Court of Appeals’ decision
should be affirmed so that the District Court can
exercise its gatekeeping function.

6
In Point II, members of Peaceful Tomorrows share
their firsthand accounts of how the government’s
sweeping reliance on national security has impeded
the cause of justice and accountability in the 9/11
Proceedings.
In telling those stories, Peaceful
Tomorrows and its members aim to amplify the need
for careful judicial review of state secrets privilege
invocations to promote confidence in and the integrity
of our trial system. 7
ARGUMENT
I. THE REYNOLDS DOCTRINE PRECLUDES
BLIND DEFERENCE TO THE EXECUTIVE
BRANCH
A. Under Reynolds, Courts Must Subject
Blanket Invocations of the State Secrets
Privilege to Independent Judicial Scrutiny
To withhold evidence based on the state secrets
privilege, the government must demonstrate “a
reasonable danger that compulsion of the evidence
will expose military matters which, in the interest of
national security, should not be divulged.” United
States v. Reynolds, 345 U.S. 1, 10 (1953). The
privilege applies to information that is actually kept
secret, not to information that has entered the public
domain. See id. (“It is equally apparent that these
Peaceful Tomorrows recognizes that the 9/11 Proceedings are
taking place in a military tribunal, not a federal court, and that
the precedent and procedures governing the 9/11 Proceedings
are not identical to the precedent and procedures that govern
this case. Nonetheless, the need for a judicial check on the
government’s attempt to suppress relevant evidence is a
safeguard that applies in both proceedings, and is fundamental
to engendering trust in the trial system.

7

7
electronic devices must be kept secret if their full
military advantage is to be exploited in the national
interests,” and “there was a reasonable danger that
the accident investigation report would contain
references to the secret electronic equipment which
was the primary concern of the mission.”) (emphasis
added).
The concerns underlying the privilege thus “do not
apply when the alleged state secret is no secret at all,
but rather a matter that is sensitive or embarrassing
to the government.” Pet. App. 20a. As the Court of
Appeals explained in this case:
[T]he rationale behind the state secrets
privilege is to protect legitimate government
interests, not to shield the government from
uncomfortable facts that may be disclosed or
discussed in litigation. Protecting the former
is an unfortunate necessity in our complicated
world of national and international affairs.
Protecting the latter is inconsistent with the
principle of an independent judiciary.
Id.; see also Mohamed v. Jeppesen Dataplan, Inc., 614
F.3d 1070, 1085 n.8 (9th Cir. 2010) (acknowledging
“the risk that government officials may be motivated
to invoke the state secrets doctrine not only by their
obligation to protect national security but also by a
desire to protect themselves or their associates from
scrutiny”); Ellsberg v. Mitchell, 709 F.2d 51, 57 (D.C.
Cir. 1983) (“[T]he privilege may not be used to shield
any material not strictly necessary to prevent injury
to national security.”).
To prevent the government from casting too wide of
a net, courts must therefore subject blanket
invocations of the state secrets privilege to
meaningful and independent scrutiny. As this Court

8
explained in Reynolds: “Judicial control over the
evidence in a case cannot be abdicated to the caprice
of executive officers.” Reynolds, 345 U.S. at 9-10; see
also Jeppesen, 614 F.3d at 1081 (Reynolds “places on
the court a special burden to assure itself that an
appropriate balance is struck between protecting
national security matters and preserving an open
court system.”) (citing Al-Haramain Islamic
Foundation, Inc. v. Bush, 507 F.3d 1190, 1203 (9th
Cir. 2007)); Ellsberg, 709 F.2d at 58 (“[T]o ensure that
the state secrets privilege is asserted no more
frequently and sweepingly than necessary, it is
essential that the courts continue critically to
examine instances of its invocation.”).
B. The Court of Appeals Correctly Held that,
Under Reynolds, the District Court Must
Scrutinize the Government’s Privilege
Claim More Closely Before Taking the
Drastic Step of Quashing Respondents’
Subpoenas
Reynolds established the procedure for the
government to invoke, and the courts to evaluate, a
claim of state secrets privilege. First, “[t]here must
be a formal claim of privilege, lodged by the head of
the department which has control over the matter.”
Reynolds, 345 U.S. at 7-8. Then, “[t]he court itself
must determine whether the circumstances are
appropriate for the claim of privilege,” but “without
forcing a disclosure of the very thing the privilege is
designed to protect.” Id. at 8.
Analyzing privilege claims under Reynolds has
come to involve three steps:
(1) courts must
determine that the procedural requirements for
invoking the privilege have been met; (2) courts must
then “make an independent determination” whether

9
the information is, in fact, privileged; and (3) if it is,
courts must decide “how the matter should proceed in
light of the successful privilege claim.” Jeppesen, 614
F.3d at 1080. At step three, “whenever possible,
sensitive information must be disentangled from
nonsensitive information to allow for the release of
the latter.” Ellsberg, 709 F.2d at 57.
As the Court of Appeals emphasized in Jeppesen,
“it should be a rare case when the state secrets
doctrine leads to dismissal at the outset of a case,”
and “every effort should be made to parse claims to
salvage a case like this using the Reynolds approach.”
Jeppesen, 614 F.3d at 1092. When some evidence is
privileged but some is not dismissal is justified only
when the privileged evidence is “inseparable from”
the non-privileged evidence, such that “litigating the
case to a judgment on the merits would present an
unacceptable risk of disclosing state secrets.” Id. at
1083. Although the District Court concluded that at
least some of the evidence Respondents seek (and the
government wants to suppress) is not privileged, it
did not attempt to disentangle the privileged from
the non-privileged information before quashing
Respondents’ subpoenas.
The government invoked the state secrets privilege
“to protect seven categories of information” all
relating to the CIA’s overseas detention and
interrogation program. Pet. App. 126a-128a (Pompeo
Decl. at ¶¶ 6-7). The District Court found that the
core fact the government wants to protect – that the
CIA operated a detention facility and employed
enhanced interrogation techniques at a site in Poland
– is no longer secret. Pet. App. 52a-53a. Nor is it a
secret that Mr. Zubaydah was detained and tortured
by the CIA at a foreign CIA detention site. Pet. App.
4a-6a.

10
As the District Court noted, the government relied
heavily on Jeppesen, which affirmed dismissal where
the government invoked the state secrets doctrine to
prevent the disclosure of evidence concerning the
CIA’s foreign detention and interrogation program.
But, as the District Court pointed out, Jeppesen was
decided in 2010, “when more aspects of the CIA’s
Detention and Interrogation Program were secret.”
Pet. App. 51a.
In the intervening decade, much information about
the enhanced interrogation program has become
public knowledge. Indeed, Drs. James Mitchell and
John “Bruce” Jessen, the psychologists and CIA
contractors whom Respondents seek to depose, have
since testified twice publicly about their role in
developing the program and about the treatment of
“high level detainees” – including Mr. Zubaydah – at
CIA foreign detention sites.
Excerpts from their testimony in a federal court
action are part of the record in this appeal. Multiple
government lawyers attended those depositions “to
represent the interests of the United States” and “to
protect against the unauthorized disclosure of
classified, protected or privileged Government
information.” Court of Appeals Excerpts of Record
(“C.A.E.R.”) at 107-08 (excerpts of Jessen deposition
transcript). In the presence of all those government
lawyers, Dr. Mitchell testified in detail about the
enhanced interrogation techniques the CIA employed
and, more specifically, about the CIA’s torture of Mr.
Zubaydah. C.A.E.R. at 115-19, 123-34, 138-39, 14142, 146-48 (excerpts of Mitchell deposition
transcript). More recently, in January 2020, Drs.
Mitchell and Jessen testified over the course of two
weeks in the 9/11 Proceedings, at length and in great
detail, including about the CIA’s torture of Mr.

11
Zubaydah at the CIA detention site at issue in this
case. (See Respondents’ Br. 8-9.) The government
published transcripts of that testimony online. (See
id. at 41.)
It also is no longer secret that Drs. Mitchell and
Jessen traveled to the CIA black site in Poland “at
least twice to supervise the interrogations,” and
“[d]eclassified CIA cables confirm Mitchell’s and
Jessen’s involvement in Abu Zubaydah’s torture.”
Pet. App. 5a. Moreover, in 2016, with the CIA’s
knowledge and clearance, Dr. Mitchell published a
book that discusses his role as a CIA consultant in
developing the CIA’s enhanced interrogation program
and describes in detail the treatment of Mr.
Zubaydah at a CIA overseas facility. James E.
Mitchell, Ph.D., Enhanced Interrogation: Inside the
Minds and Motives of the Islamic Terrorists Trying to
Destroy America (2016).
The government derides the Court of Appeals’
holding that secrecy therefore no longer exists. (Gov’t
Br. 29-30.) But it has literally no answer to the fact
that Drs. Mitchell and Jessen have already publicly
testified twice and Dr. Mitchell has written about the
CIA’s treatment of Mr. Zubaydah at a CIA detention
site.
The government clearly believed detailed
discovery could proceed on this subject. As the Court
of Appeals found, the record in this case thus
suggests that Respondents “can obtain nonprivileged
information from Mitchell and Jessen,” and the mere
fact of their prior testimony indicates “the viability”
of disentanglement. Pet. App. 25a-26a.
Mindful of the stakes, the Court of Appeals
nonetheless proceeded cautiously. In its merits brief,
the government incorrectly asserts that the Court of
Appeals “erroneously held that discovery could

12
proceed,” and “directed discovery to proceed.” (Gov’t
Br. 18, 21.) The Court of Appeals did not order any
discovery to take place and certainly did not order the
disclosure of any state secrets. It agreed that “much”
of the information Petitioners seek “is covered by the
state secrets privilege,” but that “a subset of
information is not.” Pet. App. 20a. In light of that, it
merely rejected the “government’s blanket assertion
of state secrets privilege” and held that the District
Court erred by quashing the subpoenas without at
least “attempt[ing] to disentangle the privileged from
nonprivileged information.” Pet. App. 21a, 25a-26a.
Nor did the Court of Appeals signal which way the
District Court should rule, making clear that “it may
again conclude that dismissal is appropriate” – but
only after going through the third step of the
Reynolds analysis. Pet App. 27a-28a.
Peaceful Tomorrows respectfully submits that the
Court of Appeals was correct in insisting that the
District Court follow the Reynolds test to its end.
II. BLANKET PRIVILEGE INVOCATIONS, WITHOUT MEANINGFUL JUDICIAL OVERSIGHT,
IMPEDE THE PURSUIT OF JUSTICE
Peaceful Tomorrows recognizes that there are valid
and important reasons for the state secrets privilege,
but there is also a real human toll and a risk to the
integrity of our trial system when the government
goes too far in invoking national security to suppress
evidence. Peaceful Tomorrows has experienced this
firsthand.
For almost two decades, the members of Peaceful
Tomorrows have waited for justice and accountability
for the attacks of September 11th and for the actions

13
taken in its aftermath.
However, they have
repeatedly seen the 9/11 Proceedings delayed (often
for months at a time) by invocations of national
security to suppress evidence of the CIA’s torture of
the defendants.
These invocations have often
appeared capricious and inconsistent – in some cases
made as to information that was already or soon
became public – and the members of Peaceful
Tomorrows are therefore concerned about the longterm legitimacy of the 9/11 Proceedings. They now
even
question
whether
avoiding
further
embarrassment and scrutiny over the defendants’
torture is a greater priority to the government than
bringing the defendants to trial or protecting national
security.
Below, we provide the personal stories of eight
members of Peaceful Tomorrows, followed by their
collective experience with the state secrets privilege
in connection with the 9/11 Proceedings. These
personal accounts highlight the importance of a
strong judicial check on the government’s invocation
of the state secrets privilege, including with respect
to the subpoenas at issue here.
A. The Individual Stories of Members of
Peaceful Tomorrows
1. Colleen Kelly
Colleen Kelly’s brother, Bill Kelly Jr., worked for
Bloomberg, LP in midtown Manhattan. On the
morning of September 11th, Colleen, a high-school
nurse practitioner in New York City, heard that a
plane hit the World Trade Center. She immediately
turned her attention to her students, several of whom
had parents who worked in or near that area. Not
once did she think that Bill, who she presumed was
safe at work in midtown, was in danger.

14
While tending to her students, Colleen received a
call from her sister. Bill was actually in the North
Tower. He was not normally supposed to be there.
Bill had been attending a two-day conference at
Windows on the World, the restaurant on the top
floor of the North Tower. He was 30 years old.
In the weeks following the attack, Colleen grieved
with her family over Bill’s murder and the terrible
twist of fate that led him to be in the wrong place at
the wrong time. Colleen soon began hearing about
the U.S. bombing campaign in Afghanistan. She did
not support violence against innocent civilians
overseas. A Catholic, Colleen wrote a letter to
bishops expressing her opposition. The letter was
widely circulated and ultimately covered in a
Washington Post article. Colleen’s letter attracted
the attention of several other victims’ family
members who reached out to express their shared
views. At the conclusion of a peace march, they met
at the White Horse Tavern in New York City in
December 2001 to share their common bond and
deeply personal family tragedies. Together, they
made a list of goals, which they wrote down on bar
napkins. Among them, the group asked that the
“perpetrators of the horrible crimes of September
11th be brought to justice in an open court of law, in
the full light of day, subject to the rights that we
cherish and share.”
Two months later, in February 2002, Colleen and
other September 11th family members founded
Peaceful Tomorrows. The organization’s name was
inspired by the words of Martin Luther King, Jr.:

15
“Wars are poor chisels for carving out peaceful
tomorrows.” 8
2. Terry Rockefeller
On September 11th, Terry Rockefeller’s sister,
Laura Rockefeller, left her Upper West Side
apartment and headed to the 106th floor of the World
Trade Center’s North Tower. Laura was 41 and an
actor, singer, and director with a passion for musical
theater. To help meet expenses, Laura occasionally
performed freelance work for an event-planning
company that organized seminars for financial
managers. On the morning of September 11th, Laura
was managing a conference at Windows on the World.
After the conference, Laura had planned to visit
Terry, Terry’s husband, and their two daughters at
their home in Massachusetts. They never saw Laura
again. No one attending the conference survived.
In the months following the attacks, Terry
searched for answers. In May 2002, she joined
Peaceful Tomorrows. Terry views Peaceful Tomorrows
as offering her the most meaningful way to honor
Laura’s life and ensure that other families do not
experience the tragic and violent deaths of their
innocent relatives. While she seeks justice and
accountability for Laura’s murder, she also believes
justice must be pursued in a manner that upholds the
civil and human rights of the accused.
3. Jessica and Leila Murphy
Jessica and Leila Murphy were five and three years
old, respectively, on September 11th. Their father,
Brian Murphy, was killed in the World Trade
8 Martin Luther King, Jr., The Casualties of the War in Vietnam
(Feb. 25, 1967).

16
Center’s North Tower while at work at Cantor
Fitzgerald.
Though she was only five years old, Jessica recalls
that September 11th was an unusual and alarming
day.
Her uncle picked her up early from
kindergarten. When she arrived home, swarms of
family members filtered in and out of the New York
City apartment she shared with her parents and
Leila. As the day progressed, Jessica remained at
home with her mother and Leila, but her father did
not return. Leila does not remember the day, nor
does she remember her father. It was not until many
years later that the Murphy sisters began to
understand the impact of their loss and the
September 11th attacks, both on their family and on
the nation.
In November 2017, Jessica and Leila read an op-ed
in the New York Times written by Julia Rodriguez, a
member of Peaceful Tomorrows who lost her brother
on September 11th. In Guantánamo Is Delaying
Justice for 9/11 Families, Ms. Rodriguez discussed
her experience observing the 9/11 Proceedings. 9 She
wrote about the human rights violations against the
five defendants and the prosecution’s efforts to
withhold discovery and otherwise abandon the
fundamental values of a fair trial. Ms. Rodriguez
described the system of the 9/11 Proceedings as
irrevocably broken – a system that, in addition to
denying basic constitutional protections to the
defendants, was delaying justice for victims’ family
members.
Julia Rodriguez, Guantánamo Is Delaying Justice for 9/11
Families, N.Y. Times (Nov. 13, 2017), https://www.nytimes.com/
2017/11/13/opinion/guantanamo-911-justice.html.

9

17
Jessica and Leila joined Peaceful Tomorrows in
2018. They supported the organization’s goal of
putting a stop to reactions to the September 11th
attacks that involve further violence or threats to
civil liberties and human rights. They objected to
violence, including torture, being carried out in their
father’s name. They each sought accountability –
accountability for the defendants through fair legal
proceedings and accountability for the government
for perpetrating human and civil rights violations in
response to the September 11th attacks.
4. Valerie Lucznikowska
On September 11th, Valerie Lucznikowska’s
nephew, Adam Arias, was working at Euro Brokers
on the 84th floor of the World Trade Center’s South
Tower. Adam was 37 years old.
In the days following the attacks, Valerie traveled
from hospital to hospital putting up posters with the
hope of finding Adam. After no success, but still with
a glimmer of hope, Valerie went to the Victims’
Center in midtown Manhattan. When she arrived,
the Victims’ Center issued a list of unidentified body
parts found in the rubble. Valerie realized then that
all hope of Adam’s survival was lost.
Valerie joined Peaceful Tomorrows in 2002. She
was drawn to Peaceful Tomorrows because of its
mission to honor September 11th victims through
peaceful solutions, including by bringing those
responsible to justice in accordance with the rule of
law and avoiding cycles of violence and revenge.
5. Nancy Meyer
On September 11th, Nancy’s sister-in-law, Lauren
Catuzzi Grandcolas, was returning from her
grandmother’s funeral in New Jersey to her home

18
near San Francisco. Lauren arrived at Newark
International Airport earlier than expected that
morning, and was offered a seat on a San Franciscobound flight departing earlier than her originally
scheduled flight. Lauren – who was three months
pregnant with her first child and eager to get home to
her husband Jack – accepted the offer and boarded
United Airlines Flight 93. Lauren and 48 other
passengers and crew were killed shortly after takeoff,
when the plane was hijacked by terrorists and
crashed into a Pennsylvania field.
In 2002, still grieving the loss of her sister-in-law,
Nancy became troubled by the so-called “war on
terror” in response to the September 11th attacks. In
searching for other victims’ family members who
shared her view that war was not the solution, Nancy
came across Peaceful Tomorrows. She joined the
organization in early 2004 and has since spoken
around the world about her experience on September
11th and breaking the cycles of violence engendered
by war and terrorism. It is a legacy she hopes to
leave on behalf of Lauren and the child Lauren never
had, as well as Nancy’s own children.
6. Phyllis Rodriguez
On the morning of September 11th, Phyllis
Rodriguez left her White Plains, New York
apartment for a brisk walk. When she returned
home – ready to begin coursework for the master’s
degree she was pursuing at nearby Fordham
University – she noticed a new message on her
answering machine. It was from her son, Greg
Rodriguez. Greg was 31 years old and worked as a
computer specialist at Cantor Fitzgerald. Greg said
on his message that there was a disaster at the World
Trade Center and asked Phyllis to tell his wife,

19
Elizabeth, that he was okay. That was the last time
Phyllis heard Greg’s voice.
That day and the next, Phyllis’ family traveled
from hospital to hospital searching for Greg. They
met with the families and friends of other Cantor
Fitzgerald employees at a hotel ballroom turned
crisis center, as the company painstakingly worked to
identify who was alive and who was not. Those not
accounted for were presumed dead. Greg was never
found.
In the days following the attacks, Phyllis’ grief was
coupled with fear about the consequences of the
attacks. Deeply concerned about the likelihood of
reactionary violence, Phyllis and her husband,
Orlando, wrote an open letter titled “Not in Our Son’s
Name,” urging the U.S. government not to wage war
in retaliation for September 11th. That letter was
widely circulated and garnered international
attention. Other victims’ families reached out to
express their shared belief that further violence and
suffering was not the answer. That became the
groundwork for Peaceful Tomorrows, which Phyllis
co-founded with Colleen Kelly and others on
February 14, 2002.
7. Adele Welty
On the morning of September 11th, Adele Welty
arrived at her office in lower Manhattan’s City Hall.
Adele worked for the City of New York as a geriatric
social worker, handling cases of elder abuse and other
crimes against the elderly. Adele’s son, Timothy
“Timmy” Welty, was a 34-year-old firefighter for
Squad 288 in Queens. He and his wife Delia had two
children – a son Jake, who was three years old, and a
newborn daughter Julia, who was just one month old.

20
In the early morning hours of September 11th,
Timmy signed out from his overnight post on hazmat
duty. He planned to head home. Soon after, Squad
288 received a call that the Twin Towers were under
attack. Timmy and his fellow firefighters rushed to
the scene and were among the first to arrive.
From her office window, Adele watched the towers
collapse. She tried to make her way from City Hall to
the scene, but her route was blocked by FBI
barricades. She walked back to her home in Queens
and waited by the phone to hear from Timmy. That
call never came. Timmy was killed on September
11th along with 343 other firefighters.
Several months after the attacks, Adele and her
family received a call from the medical examiner.
Timmy’s thigh had been found near the South Tower
and his hand was identified in a garbage dump on
Staten Island. As she mourned the loss of her son,
Adele searched for answers. She wanted to learn the
facts and what led to the September 11th attacks.
But as the mood of the country seemed inclined to
war, Adele searched for a way to find a peaceful
alternative. She came across and joined Peaceful
Tomorrows.
B. The Experience of Members of Peaceful
Tomorrows with the State Secrets Privilege
at the 9/11 Proceedings Demonstrates the
Need for Judicial Scrutiny
These eight individuals, like so many other
members of Peaceful Tomorrows, have followed the
9/11 Proceedings closely. They have, collectively,
attended all forty-one hearings in person at
Guantanamo or via a television feed made available
to family members of those who died on September

21
11th. Many of them, for example, watched Drs.
Mitchell and Jessen testify over several days,
including about subjecting Mr. Zubaydah and other
detainees to “enhanced interrogation” at foreign CIA
black sites. They have also seen the government
repeatedly invoke “national security” to suppress
evidence related to the defendants’ torture and the
protracted delays these government actions have
caused in the 9/11 Proceedings.
Peaceful Tomorrows is deeply concerned about
potential government abuses of the state secrets
privilege. It is concerned because, as detailed below,
its members have witnessed the government invoke
national security to, among other things, apparently
circumvent the judge’s role as a gatekeeper, suppress
information it soon after declassified, and attempt to
suppress questioning concerning information that
was clearly public already, such as portions of Dr.
Mitchell’s published book.
At Guantanamo, those in the viewing gallery watch
the Proceedings behind a wall of glass with a
synchronized audio and video feed that arrives on a
40-second delay. The delay is designed to allow the
judge and his security officer to prevent the “spill” of
classified information. A red light comes on when the
censor button is pushed, which cuts the audio and
video feed.
Members of Peaceful Tomorrows have seen the
government apparently attempt to circumvent this
process and the court’s role as a gatekeeper. While
Terry, Valerie, and Phyllis were observing a hearing
on January 28, 2013, the audio feed spontaneously
shut off as defense counsel raised a motion to
preserve evidence concerning overseas detention
facilities. When the feed returned, they could hear

22
that the judge and his security officer were flustered,
as neither of them had turned off the feed and had
believed they were the only ones with the ability to do
so. The judge expressed his frustration with the
incident:
Trial counsel, note for the record that the 40second delay was initiated, not by me. I’m
curious as to why. . . . if some external body
is turning the commission off under their
own view of what things ought to be, with no
reasonable explanation . . . then we are going
to have a little meeting about who turns that
light on or off. 10
This event left Terry, Valerie, and Phyllis, and many
others, to wonder just who had the ability to
unilaterally cut off the feed remotely to conceal
potentially damning evidence about the government’s
treatment of the defendants in detention facilities. 11
This experience reinforced the critical role of a judge
as gatekeeper of state secret privilege claims.
Since the start of the 9/11 Proceedings in 2012, the
details of the government’s enhanced interrogation
program have increasingly become public. From
well-documented, publicly available sources –
including the testimony of Drs. Mitchell and Jessen,
Dr. Mitchell’s book, and the 2014 Senate Select
Committee on Intelligence Report – the world knows
See United States v. Khalid Shaikh Mohammad et al.,
Transcript, 1445:17-1446:7 (Jan. 28, 2013), https://www.mc.mil/
Portals/0/pdfs/KSM2/KSM%20II%20(TRANS28January2013PM1).pdf.
11 See John Ryan, Pretrial of the Century: The Sept. 11 Case at
Guantanamo Bay, Lawdragon 500 Issue 17, 72 (noting that as a
result of this incident, “many have assumed the CIA” cut the
feed of the Proceedings remotely).
10

23
that the 9/11 Proceedings defendants, Mr. Zubaydah,
and other detainees were subjected to waterboarding,
wall-slamming, face slapping, sleep deprivation,
rectal rehydration, rectal feeding, and other brutal
methods of “interrogation” while detained at various
CIA black sites, including black sites located abroad.
In the experience of members of Peaceful
Tomorrows, this vast and expanding body of public
information has made the government’s invocations
of national security in the 9/11 Proceedings
increasingly questionable and worthy of scrutiny.
For example, on several occasions members of
Peaceful Tomorrows have watched hearings suffer
protracted delays from national security objections at
a mere hint of the locations of the CIA black sites
where the defendants had been held.
These
objections rang particularly hollow, as there were
safeguards in place to protect any national security
concerns while permitting testimony about what
happened at those cites to proceed. Specifically, the
black sites were referred to by color codes to mask
their precise location and relevant individuals whose
identities were classified were referred to by
pseudonyms. 12
Members of Peaceful Tomorrows have also seen the
judge repeatedly deem inadequate the government’s
substitution of non-privileged information for
12 See, e.g., United States v. Khalid Shaikh Mohammad et al.,
Transcript, 30525:12-18 (Jan. 22, 2020), https://www.mc.
mil/Portals/0/pdfs/KSM2/KSM%20II%20(TRANS22Jan2020-PMMERGED).pdf (“The commission’s position generally is that the
protections that have been previously judicially approved with
respect to [unique functional identifier]s, pseudonyms, et cetera
should be sufficient to be able to discuss things in an open
session”).

24
classified information, causing further delays in the
9/11 Proceedings. For example, during a July 25,
2016 hearing – more than four years after
defendants’ arraignment – Colleen watched as the
judge reported that he had received from the
government only “fifty percent” of the discovery
requested by the defendants relating to the CIA’s
detention and interrogation of the defendants and
other detainees. 13 Of that, the judge reported that he
was forced to reject “virtually all” of the government’s
substitutions and send it back to the government for
further “additions.” 14 Colleen was struck by the
government’s apparent lack of good faith in carrying
out its obligations to provide the defense with timely
and adequate substitutes for the withheld
information.
In addition, members of Peaceful Tomorrows have
witnessed the government invoke national security
inconsistently as to the same piece of evidence. For
example, during a July 23, 2018 pretrial hearing,
Jessica and Leila observed defense counsel present a
document that related to the defendants’ torture.
Although the defense had requested the same
document from the prosecution two years earlier, it
had been produced only in a redacted, summarized
form to protect information that, if released, the
government claimed could damage national security.
As it turned out, however, the government released
an unredacted version of the document to a Buzzfeed
news reporter in response to a FOIA request just two

13 United States v. Khalid Shaikh Mohammad et al., Transcript,
12969:18-19 (July 25, 2016), https://www.mc.mil/Portals/0/pdfs/
KSM2/KSM%20II%20(TRANS25July2016-PM1).pdf.
14 Id. at 12968:21-22.

25
years later. 15 The defense obtained a copy of this
unredacted version.
Jessica and Leila became
concerned that the government was selectively
seeking to hide information – even that which it
actually believed could be made public – for its own
self-interest, and not to protect national security.
In light of this incident, the judge questioned the
propriety of the government’s other invocations of
national security:
[A]lot of it is based on the government’s
representations, okay? . . . . And now,
apparently the damage to national security
in 2016 has gone away in 2018 . . . How do I
know all of the other summaries don’t have
the same problem? . . . why should I have
faith that the thousands of other ones I
looked at don’t have the same problem? . . .
Should I be concerned that the original
documents that I saw were not really
properly classified? . . . In 2016, [] releasing
that to the defense was going to damage
national security; and now in ’18 apparently
it’s not, two years later. Why should I have
any faith in these determinations, then, if
they can change like that? 16
The members of Peaceful Tomorrows also have
experience with the government trying to invoke
national security to suppress information related to
what Dr. Mitchell has publicly stated. 17 For example,
15 United States v. Khalid Shaikh Mohammad et al., Transcript,
20039:22-20040:5 (July 23, 2018), https://www.mc.mil/Portals/0/
pdfs/KSM2/KSM%20II%20(TRANS23Jul2018)-MERGED.pdf.
16 Id. at 20012:22-20018:13.
17 See, e.g., Julian Borger, Guantánamo: psychologists who
designed CIA torture program to testify, The Guardian (Jan. 20,

26
in January 2020, during Dr. Mitchell’s testimony,
Valerie, Terry, and Colleen watched while defense
counsel tried to question Dr. Mitchell about certain
passages in his book – which the government had
permitted to be published – and the government
objected on the grounds of national security. For
instance, the government objected to a question by
defense counsel about whether the “highly respected
senior operations officer” mentioned in a passage of
Dr. Mitchell’s book had a unique functional identifier
(“UFI”) (used as a code in the 9/11 Proceedings to
safeguard national security concerns), and asserted
that Dr. Mitchell confirming that a “senior operations
officer” had a UFI threatened “national security.”
Valerie, Terry, and Colleen were baffled at the
government’s assertions because Dr. Mitchell’s book
was available to the entire world and the government
had allowed it to be published. The judge expressed
similar skepticism: “I don’t understand it. . . . help
me understand what you’re asserting, because I don’t
get it.” 18 Ultimately, the judge and government were
able to use the existing UFIs and additional
safeguards to address the government’s concerns. In
other words, by exercising his gatekeeper function
and implementing safeguards to disentangle
privileged from non-privileged information, the judge

2020), https://www.theguardian.com/us-news/2020/jan/20/guan
tanamo-psychologists-cia-torture-program-testify (describing “a
new set of secrecy rules introduced by the prosecution . . . that
prevents defence lawyers from citing references to the
interrogation programme in published books, even though they
had been cleared for publication by the CIA”).
18 United States v. Khalid Shaikh Mohammad et al., Transcript,
30463:19-20 (Jan. 22, 2020), https://www.mc.mil/Portals/0/
pdfs/KSM2/KSM%20II%20(TRANS22Jan2020-AM-MERGED).pdf.

27
permitted Dr. Mitchell to testify, including about
various passages in his book. 19
*

*

*

*

Through their collective experience, the pursuit of
justice has appeared increasingly quixotic to the
members of Peaceful Tomorrows, and they have lost
confidence in the fairness and integrity of the
Proceedings. As the twentieth anniversary of the
September 11th attacks approaches, the members of
Peaceful Tomorrows fear that the 9/11 Proceedings
will never offer the justice they seek – namely, a fair
trial that applies the rule of law to both sides and
brings the defendants to justice. They also fear that
the subjugation of the defendants’ rights will result in
a broader erosion of rights and undermine the
historical legitimacy of the 9/11 Proceedings
themselves.
This experience has also taught the members of
Peaceful
Tomorrows
that
the
government’s
invocations of the state secrets privilege should be
carefully examined when it comes to the enhanced
interrogation program. The expanding public record
and the risk of embarrassment to the government
underscore the needs for disentanglement and for
courts to fulfill their gatekeeper function to maintain
an appropriate balance between protecting national
security and preserving a fair and open court system.
19 See, e.g., United States v. Khalid Shaikh Mohammad et al.,
Transcript, 30525:12-19 (Jan. 22, 2020), https://www.mc.
mil/Portals/0/pdfs/KSM2/KSM%20II%20(TRANS22Jan2020-PMMERGED).pdf; United States v. Khalid Shaikh Mohammad et
al., Transcript, Part 2 of 5, 31202:1-16 (Jan. 27, 2020),
https://www.mc.mil/Portals/0/pdfs/KSM2/KSM%20II%20(TRANS
27Jan2020-MERGED)_Part2.pdf.

28
Left unchecked, the risks of government abuses of the
state secrets privilege and the implications on
litigants and our trial system are too great.
CONCLUSION
For the foregoing reasons, the Court should affirm
the decision of the United States Court of Appeals for
the Ninth Circuit.
Respectfully submitted,
/s/ Steven S. Sparling
STEVEN S. SPARLING
Counsel of Record
MARJORIE E. SHELDON
ARIELLE WARSHALL KATZ
NATHAN SCHWARTZBERG
RYAN GANDER
KRAMER LEVIN NAFTALIS
& FRANKEL LLP
1177 Avenue of the Americas
New York, New York 10036
(212) 715-9100
ssparling@kramerlevin.com
Counsel for Amicus Curiae
September 11th Families for
Peaceful Tomorrows
August 20, 2021

